Bellco Credit Union
Account Disclosure
Visa® Signature Cash Back Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

11.50% 21%

to
based on creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

21%

APR for Cash Advances

21%

Penalty APR

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We
will begin charging interest on cash advances or balance transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit Card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction

$25

Either $10 or 4% of the amount of each balance transfer, whichever is greater
(maximum fee: $75)
Either $10 or 4% of the amount of each cash advance, whichever is greater
(maximum fee $75)
Up to 1% of each transaction in U.S. dollars.

Penalty Fees
Late Payment
The lesser of minimum payment due or $25.
Returned Payment
$10.
Over the Limit Fee
None
How We Will Calculate Your Balance:
See your account agreement for more details.
Expedite Delivery of Card: A fee of $45 may be charged for expedited delivery of a Card at the time of request.
Cash Back: 1.5% of Purchases will be paid back to the Member in the form of a (Statement Credit?). Cash Back will
be paid once monthly in increments of $25 as earned.
advances; quasimerchandise; ATM transactions; any checks that access your account; overdraft advances; earned interest;
unauthorized or fraudulent charges; betting that includes lottery tickets, casino gaming chips, off-track betting and
wager; or fees of any kind, including an annual fee, if applicable. To be eligible for Cash Back, account must be
open and must be in good standing at the time of fulfillment.
Periodic Rates: After any Introductory Rate period, or if an Introductory rate does not apply to your Account, the
periodic rate for purchases will range from 0.0314% per day to 0.0576% per day which corresponds to an ANNUAL
PERCENTAGE RATE ranging from 11.50% to 21%. The periodic rate for cash advances is 0.0576% per day with a
corresponding annual percentage rate of 21%. Balance transfers will be considered purchases and will have the
same periodic rate and corresponding annual percentage rate as purchases. Balance transfers will be referred to
as Cash Advances for purposes of this disclosure.
Effective Date: This disclosure is effective as of April 1, 2020 and is subject to change after date listed.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your account agreement.

